Exhibit A

DEC 0 6 M18

Court of appeals of #f)to
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA

JOURNAL ENTRY AND OPINION
No. 106806

GPI DISTRIBUTORS, INC.
PLAINTIFF-APPELLANT

NORTHEAST OHIO REGIONAL
SEWER DISTRICT
DEFENDANT-APPELLEE

JUDGMENT:
AFFIRMED

Civil Appeal from the
Cuyahoga County Court of Common Pleas
Case Nos. CV-17-883825 and CV-17-887300

BEFORE: Celebrezze, J., Kilbane, P.J., and Boyle, J.
RELEASED AND JOURNALIZED: December 6, 2018

CV17883825

106595052

106595052

-

1-

ATTORNEYS FOR APPELLANT
Deborah A. Coleman
Coleman Law, L.L.C.
16781 Chagrin Boulevard, #289
Cleveland, Ohio 44120
Andrew S. Pollis
Avidan Y. Cover
Milton A. Kramer Law Clinic - CWRU
11075 East Boulevard
Cleveland, Ohio 44106
Cory Novak
Legal Intern
Milton A. Kramer Law Clinic - CWRU
11075 East Boulevard
Cleveland, Ohio 44106

ATTORNEYS FOR APPELLEE
Eric Luckage
Chief Legal Officer
Amanda Lee Holzhauer
Assistant General Counsel
Northeast Ohio Regional Sewer District
3900 Euclid Avenue
Cleveland, Ohio 44115

FRANK D. CELEBREZZE, JR., J.:
{f 1} Plaintiff-appellant, GPI Distributors, Inc. (hereinafter “GPI”), appeals
the trial court’s judgment granting defendant-appellee, Northeast Ohio Regional
Sewer District’s (hereinafter “NEORSD”) motion to dismiss GPI’s administrative
appeal for failure to comply with R.C. 2505.06. GPI argues that the trial court
erred by granting NEORSD’s motion to dismiss because it was not required to
file a supersedeas bond in order to perfect the administrative appeal and that
even if a bond was required, the appeal could proceed on questions of law. After
a thorough review of the record and law, this court affirms.
I. Factual and Procedural History
{f 2} The instant appeal arose from a dispute over sewer bills charged to
a residential property owned by GPI between December 2014 and June 2015.
GPI initiated two separate but related civil actions in the Cuyahoga County
Court of Common Pleas.
{^3} First, in Cuyahoga C.P. No. CV-17-883825 (hereinafter “declaratory
judgment action”), GPI filed a complaint on August 1, 2017, against the city of
Cleveland, the director of the city’s department of public utilities, NEORSD,
NEORSD’s chief executive officer, Cuyahoga County’s fiscal officer, and
Cuyahoga County’s treasurer. In its complaint, GPI sought a declaratory
judgment and preliminary and permanent injunctive relief. Specifically, GPI
alleged that (1) various policies and practices of the city of Cleveland and

NEORSD were unconstitutional, violating GPI’s constitutional rights to due
process, protection from takings for public purposes without just compensation,
and various civil rights, and (2) the city violated various sections of the
Cleveland Codified Ordinances1 in the manner in which it installed and
maintained water meters and assessed water and sewer bills to customers.
{^4}

Second,

in Cuyahoga C.P.

No.

CV-17-887300 (hereinafter

“administrative appeal”), GPI filed an administrative appeal on October 12,
2017, challenging NEORSD’s September 21, 2017 decision that approved and
adopted a hearing officer’s determination that GPI’s sewer bills were accurate.
On October 12, 2017, GPI filed a motion to consolidate the declaratory judgment
action with the administrative appeal. The trial court granted GPI’s motion, and
the two cases were consolidated on October 13, 2017.
{^15} Along with its motion to consolidate, GPI filed a motion to
“determin[el the necessity of a supersedeas bond to perfect notice of appeal” in
which it requested an expedited ruling. On the same day, GPI filed an amended
motion to “determin[e] that no supersedeas bond is necessary to perfect notice
of appeal.” In the amended motion, GPI argued that it was not required to post
the supersedeas bond required by R.C. 2505.06 in order to perfect its
administrative appeal because (1) NEORSD did not issue an order for the
payment of money, making the bond exemption set forth in R.C. 2505.12(B)

1 Cleveland Codified Ordinances 533.01(a)(1) and (c), 535.29, and 535.31.

I

i

applicable, and (2) NEORSD already obtained a lien on GPI’s property for the
outstanding sewer charges, and thus, the interests that NEORSD had at stake
in the administrative appeal were already secured. Alternatively, GPI requested
that the trial court set a nominal cash bond of $50.
{^[6} On October 18, 2017, NEORSD filed a brief in opposition to GPI’s
motion regarding the supersedeas bond. Therein, NEORSD argued that GPI
was required to comply with R.C. 2505.06’s bond requirement in order to perfect
its notice of appeal.
{f7} On October 19, 2017, the trial court denied GPI’s motion for a
determination that no supersedeas bond was required.

The trial court’s

judgment entry provides, in relevant part,
R.C. 2505.06 requires that an administrative appeal upon questions
of law and fact be superseded by a bond. Because this case involves
an administrative appeal of a final order on a sewer bill charge in
the amount of $12,047.76, R.C. 2505.12(B), which exempts the
supersedeas bond requirement, in inapplicable. [GPI’s] additional
argument that [NEORSD’s] interest in the sewer bill charge has
already been secured with a lien is without merit because the tax
balance on the property at issue exceeds the value of the property.
* * * R.C. 2505.09 requires that a supersedeas bond is executed by
the appellant to the appellee, with sufficient sureties and in a sum
that is not less than the cumulative total for all claims covered by
[t]he final order. Therefore, [GPI] is required to post a supersedeas
bond in the amount of $12,047.76.
{^[8} On November 1, 2017, NEORSD filed a motion to dismiss the
administrative appeal based on GPI’s failure to comply with R.C. 2505.06’s bond
requirement. On November 28, 2017, GPI filed a brief in opposition to the

motion to dismiss. In opposing the motion to dismiss, GPI argued, for the first
time, that (1) it was indigent and could not afford to post the bond set by the
trial court, and (2) R.C. 2505.06’s bond requirement was unconstitutional
because it violated GPI’s constitutional rights to due process and equal
protection. NEORSD filed a reply brief in support of its motion to dismiss on
December 6, 2017.
{^9} On January 12, 2018, the trial court granted NEORSD’s motion to
dismiss and dismissed GPI’s administrative appeal. The trial court’s judgment
entry provides, in relevant part,
This court previously determined that a supersedeas bond was
required to invoke jurisdiction to review the outcome of an
administrative appeal regarding NEORSD placement of a lien
against GPI property for unpaid sewer charges. GPI filed the
administrative appeal citing issues of fact and law. * * * [GPI] failed
to file the bond in a timely manner or to substitute for bond
pursuant to R.C. 2505.11. NEORSD moved for dismissal for GPI’s
failure to perfect the administrative appeal in compliance with R.C.
2505.06.
GPI opposes dismissal asserting that it could not afford the posting
of the bond, thereby depriving it of a meaningful opportunity to be
heard in violation of its rights to due process and equal protection
under Federal and State Constitutions. Simply stated, GPI asserts
that the bond requirement of R.C. [2505.06] is unconstitutional as
an impediment to access court review of the administrative appeal.
Legislative enactments are to be afforded a strong presumption of
constitutionality. Rocky River v. State Empl. Relations Bd., 43 Ohio
St.3d 1[, 539 N.E.2d 103] (1989).
The administrative appeal was conducted for a determination of an
amount due for the sewer charges, thereby requiring the posting of
the supersedeas bond. As no bond was timely posted, case is hereby

dismissed.
{^[10} It is from this judgment that GPI filed the instant appeal on
February 7, 2018. GPI assigns one error for review:
I. The trial court erred in granting [NEORSD’s] motion to dismiss
[GPI’s] administrative appeal for failure to post a supersedeas bond
under R.C. 2505.06.
II. Law and Analysis
A. Final Appealable Order
{^11} As an initial matter, we must determine whether the trial court’s
January 12, 2018 judgment granting NEORSD’s motion to dismiss GPI’s
administrative appeal is a final, appealable order.
{^112} As noted above, GPI filed (1) a declaratory judgment action in CV17-883825, and (2) an administrative appeal in CV-17-887300. The trial court’s
January 12, 2018 judgment entry granting NEORSD’s motion to dismiss was
dispositive of GPI’s administrative appeal. There was no disposition, however,
of GPI’s declaratory judgment action or the causes of action GPI asserted in its
August 1, 2017 complaint.
An order of a court is a final appealable order only if the
requirements of both Civ.R. 54(B), if applicable, and R.C. 2505.02
are met. Chef Italiano Corp. v. Kent State Univ., [44 Ohio St.3d 86,
541 N.E.2d 64 (1989)], syllabus. Moreover, an order which
adjudicates one or more but fewer than all the claims or the rights
and liabilities of fewer than all the parties must meet the
requirements of R.C. 2505.02 and Civ.R. 54(B) in order to be final
and appealable. Noble v. Colwell, [44 Ohio St.3d 92, 540 N.E.2d
1381 (1989)], syllabus. An order fully adjudicating a claim and

accompanied by a Civ.R. 54(B) determination and direction is final
and appealable despite the fact that a counterclaim remains
pending. Id. at 94.
R.C. 2505.02 in relevant part defines a final order as “an order
affecting a substantial right in an action which in effect determines
the action and prevents a judgment.” Id. at 88.

Philpott v. Ernst

& Whinney,

8th Dist. Cuyahoga No. 61203, 1992 Ohio App.

LEXIS 5930, 3-4 (Nov. 25, 1992).
{f 13} Furthermore,
[t]he Ohio Supreme Court has held that where multiple claims
and/or parties exist, an order adjudicating one or more but fewer
than all the claims or the rights and liabilities of fewer than all of
the parties must meet the requirements of both R.C. 2505.02 and
Civ.R. 54(B) in order to constitute a final appealable order. Noble
at 96. The court explained that Civ.R. 54(B) “makes mandatory the
use of the language, ‘there is no just reason for delay.’ Unless those
words appear where multiple claims and/or multiple parties exist,
the order is subject to modification and it cannot be either final or
appealable.” Id., quoting Jarrett v. Dayton Osteopathic Hosp., Inc.,
20 Ohio St.3d 77, 486 N.E.2d 99 (1985), and Whitaker-Merrell Co. v.
Geupel Constr. Co., 29 Ohio St.2d 184, 280 N.E.2d 922 (1972),
syllabus. The court emphasized, however, that a trial court cannot
turn an otherwise nonfinal order into a final appealable order by
merely reciting the language required under Civ.R. 54(B). Noble at
id.] Cirino v. Ohio Bur. of Workers’ Comp., 2016-Ohio-8323, 75
N.E.3d 965, 1 124 (8th Dist.).

Foster v. Foster, 8th Dist. Cuyahoga No. 106173, 2018-Ohio-1961,

18.

{f 14} In the instant matter, as noted above, GPI filed (1) a declaratory
judgment action in CV-17-883825, and (2) an administrative appeal in CV-17887300. GPI filed the instant appeal challenging the trial court’s January 12,
2018 judgment entry granting NEORSD’s motion to dismiss and dismissing

GPI’s administrative appeal.
{f 15} The trial court’s January 12, 2018 judgment entry is dispositive of
and fully adjudicates GPI’s administrative appeal. Furthermore, the trial court’s
judgment entry included an express determination of “no just cause for delay,”
satisfying the requirements set forth in Civ.R. 54(B). Accordingly, we find that
the trial court’s order granting NEORSD’s motion to dismiss constitutes a final,
appealable order because it fully adjudicates GPI’s administrative appeal and
is accompanied by a Civ.R. 54(B) determination and direction.
{116} The trial court’s January 12, 2018 judgment entry does not,
however, dispose of or adjudicate GPI’s declaratory judgment action or the
causes of action GPI asserted in its August 1, 2017 complaint. Because GPI’s
constitutional claims were not fully adjudicated, and remain pending, they are
outside the scope of the instant appeal.
{^f 17} Based on the foregoing analysis, we will only address the merits of
the trial court’s judgment dismissing GPI’s administrative appeal because GPI’s
constitutional claims are not properly before this court.
B. Supersedeas Bond Requirement
{f 18} In its sole assignment of error, GPI argues that the trial court erred
by granting NEORSD’s motion to dismiss based on GPI’s failure to post a
supersedeas bond as required by R.C. 2505.06.
(If 19} R.C. 2505.06 provides that for administrative appeals involving

questions of law

and fact,

no administrative-related appeal shall be effective as an appeal
upon questions of law and fact until the final order appealed is
superseded by a bond in the amount and with the conditions
provided in sections 2505.09 and 2505.14 of the Revised Code, and
unless such bond is filed at the time the notice of appeal is required
to be filed.
(Emphasis added.)

Where an administrative appeal is brought solely on

questions of law, however, the appellant is not required to file a bond. Ballado
v. Cleveland Hts., 76 Ohio App.3d 497, 498, 602 N.E.2d 394 (8th Dist.1991),
citing Adrian, Inc. v. Parrott, 5th Dist. Delaware No. 90-CA-31, 1990 Ohio
App. LEXIS 5521, 3 (Nov. 30, 1990); see Am. Aggregates Corp. v. Concord Twp.,
5th Dist. Delaware Nos. 90-CA-32 and 90-CA-33, 1991 Ohio App. LEXIS 1655,
5 (Apr. 11, 1991) (“the filing of a supersedeas bond is not a jurisdictional
prerequisite to perfect [an] appeal under R.C. [Chapter] 2505 involving questions
of law only.”). “Pursuant to R.C. 2505.06, it is the duty of appellants to designate
the nature of the administrative appeal[.]” Bell v.

Richmond Hts. Equalization

Bd., 8th Dist. Cuyahoga No. 66404, 1994 Ohio App. LEXIS 5159, 7 (Nov. 17,
1994).
{^[20} This court has recognized that “[i]t is well established that when an
administrative appeal concerns questions of law and fact, a supersedeas bond

must be filed.” (Emphasis added.) Bell at 6, citing Ballado, Nutter v. Concord
Twp. Bd. of Zoning Appeals, 11th Dist. Lake No. 92-L-118, 1993 Ohio App.

LEXIS 3337 (June 30,1993), and Landsittel v. Delaware, 5th Dist. Delaware No.
89-CA-2, 1989 Ohio App. LEXIS 2736 (June 29, 1989). Furthermore,
when an administrative appeal concerns questions of law and fact,
a supersedeas bond, unless otherwise provided by law, must be filed
within thirty days of the final administrative order to perfect the
notice of appeal. The requirement of timely filing a supersedeas
bond with a notice of appeal is therefore a jurisdictional requirement

rather than one procedural and/or technical in nature. See Ballado,
supra; Steuely v. Stoll, 57 Ohio App. 401, 14 N.E.2d 419 [3d
Dist.1937]; Moore u. Cleveland Civil Serv. Comm., 11 Ohio App.3d
273, 465 N.E.2d 482 [8th Dist.1983],
(Emphasis added.) Bell at 7.
{^[21} Appellate courts in the state of Ohio have disagreed on the
consequences of an appellant’s failure to file the required bond upon an appeal
of questions of law and fact. This court held that an appellant’s failure to post
the supersedeas bond in a timely manner when required to do so under R.C.
2505.06 mandates the immediate dismissal of all aspects — both questions of
law and questions of fact — of an administrative appeal. Ballado at 498. In

Ballado, the appellant’s notice of appeal, like the notice of appeal filed by GPI,
“dealt with questions of both law and fact, rendering R.C. 2505.06 applicable!.]”

Id. The Fifth and Tenth Districts have also viewed an appellant’s failure to file
the required bond as being fatal to the entire appeal. See Dawes v. Murphy, 119
Ohio App. 201, 197 N.E.2d 818 (10th Dist.1963); Landsittel.
{^[22} Other appellate districts, however, have held that when an
appellant fails to post the requisite supersedeas bond, the appeals may proceed,

but only on questions of law. Pickrel v. Hrobon, 106 Ohio App. 313, 151 N.E.2d
32 (10th Dist.1958); Nutter at 10-11 (the failure to post a supersedeas bond
under R.C. 2505.06 is only fatal to the “fact” portion of the appeal); see also

Liberty Savs. Bank u. Kettering, 101 Ohio App.3d 446, 449-450, 655 N.E.2d 1322
(2d Dist.1995) (when an appellant files an administrative appeal based on
questions of law and fact, but fails to file a supersedeas bond, the common pleas
court should first determine whether the appeal may continue solely on
questions of law; if the appeal can proceed on only questions of law, the trial
court should not dismiss the case, but rather proceed with the appeal and limit
its review to the questions of law); Salida Invest. Group v. Lake Cty. Util. Dept.,
2015-0hio-5066, 53 N.E.3d 857, | 26 (11th Dist.) (remanding the matter to the
trial court based on the court’s failure to engage in the analysis set forth in

Nutter and failure to consider appellant’s argument that the appeal was solely
on a question of law).
{^23} In the instant matter, a review of the notice of appeal GPI filed in
the trial court indicates that the administrative appeal was based on questions
of law and fact. GPI’s notice of appeal states, in relevant part, “GPI appeals on

issues of both law and fact. NEORSD’s decision is unconstitutional, illegal,
arbitrary, capricious, unreasonable, and/or unsupported by a preponderance of
substantial, reliable, and probative evidence.” (Emphasis added.)

{^| 24} A review of GPI’s motion to consolidate CV-17-883825 and CV-17887300 supports the conclusion that the administrative appeal was not based
solely on questions of law, but rather on questions of law and fact. In its motion
to consolidate, GPI asserted, in relevant part,
[t]he two cases arise from the same facts — the clearly erroneous
measurement of water consumption by the Cleveland Division of
Water at a property owned by GPI, and the resulting bills for water
and sewer services issued for approximately six months ending
June 8, 2015.
* * ic
In [CV-17-887300], GPI is the Appellant in an administrative appeal
from an NEORSD order rejecting GPI’s dispute over the excessive
sewer bills.
The two cases have common questions of law and fact, including
whether NEORSD sewer service charges that were billed to GPI for
the period December 5, 2014, through June 18, 2015, are illegal,
arbitrary, capricious, and unreasonable, and have no relationship
to sewer services actually provided to GPI during that time or to the
record of water consumption upon which the sewer charges were
based.
(Emphasis added.)
{f25} It is evident that GPI’s administrative appeal was brought on
questions of law and fact, and that GPI’s primary concern was a question of fact
— NEORSD’s determination that the sewer bills were accurate — rather than
a question of law. The supersedeas bond requirement was clearly an issue of
concern for GPI, prompting GPI to file a motion and an amended motion to

determine the necessity of such bond. See Bell, 8th Dist. Cuyahoga No. 66404,
1994 Ohio App. LEXIS 5159, at 10.
{^26} In ruling on GPI’s motions to determine the necessity of a
supersedeas bond, the trial court, unlike the lower court in Salida, made a
determination that the administrative appeal was brought on questions of law
and fact, and that the appeal could not proceed on questions of law alone. The
trial court further ordered GPI to file a $12,047.76 bond, concluding that the
bond exemption set forth in R.C. 2505.12(B) was inapplicable because the appeal
was from a final order on a sewer bill.
(f 27} As noted above, in its brief in opposition to NEORSD’s motion to
dismiss the administrative appeal for failing to post the requisite bond under
R.C. 2505.06, GPI argued that it was indigent and, as a result, could not post the
$12,047.76 bond set by the trial court. R.C. 2505.11 provides a mechanism for
substituting the supersedeas bond requirement in connection with an appeal.
GPI could have pursued this course of action in order to perfect its
administrative appeal and invoke the trial court’s jurisdiction. However, GPI
failed to do so.
{^28} Finally, we find nO merit to GPI’s argument that the failure to
comply with R.C. 2505.06 is only fatal to the questions of fact in the
administrative appeal, such that the appeal can proceed on questions of law.
GPI acknowledges this court’s holding in Ballado, but argues that Ballado is “an

older case that engaged in only a cursory analysis of the issue.” GPI contends
that we should instead follow the “better-reasoned decisions” in Salida and

Liberty Savs. Bank.
{^f 29} After reviewing the record, we find no basis upon which to depart
from this court’s precedent. Although GPI advanced this argument in both the
trial court proceedings and the instant appeal, GPI fails to identify any question
of law it was challenging in the administrative appeal upon which the appeal
can proceed, much less a question of law that can be decided without a factual
appeal. See Salida, 2015-0hio-5066, 53 N.E.3d 857, at ^ 25 (in the absence of
supersedeas bond, an administrative appeal can proceed on questions of law, “so
long as a factual appeal is not necessary to decide the questions of law.”).
{^[ 30} For all of the foregoing reasons, we find that the trial court properly
granted NEORSD’s motion to dismiss. Based on GPI’s failure to comply with
R.C. 2505.06’s bond requirement, the trial court lacked subject matter
jurisdiction over the administrative appeal. GPI’s sole assignment of error is
overruled.
C. Due Process and Equal Protection
{^[31} As noted above, in opposing NEORSD’s motion to dismiss the
administrative appeal based on GPI’s failure to comply with R.C. 2505.06, GPI
argued — for the first time — that R.C. 2505.06’s bond requirement violated its
constitutional rights to due process and equal protection.

{f 32} The trial court’s January 12, 2018 judgment entry, from which GPI
filed the instant appeal, references GPI’s assertion that R.C. 2505.06’s bond
requirement violates the constitutional rights to due process and equal
protection. Furthermore, the judgment entry acknowledges the general rule
that all legislative enactments enjoy a presumption of constitutionality. The
trial court did not, however, address the merits of GPI’s constitutional challenge
or make a determination regarding the constitutionality of R.C. 2505.06 or the
statute’s bond requirement. Rather, the court’s judgment entry reflects that it
granted NEORSD’s motion and dismissed the administrative appeal on
jurisdictional grounds based on GPI’s failure to post the requisite bond.
{^33} As an initial matter, we note that this court generally does not
address constitutional issues unless it is absolutely necessary to do so. ‘“Ohio
law abounds with precedent to the effect that constitutional issues should not be
decided unless absolutely necessary.’” Ohioans for Fair Representation, Inc. v.

Taft, 67 Ohio St.3d 180, 183, 616 N.E.2d 905 (1993), quoting Hall China Co. u.

Pub. Util. Comm., 50 Ohio St.2d 206, 210, 364 N.E.2d 852 (1977).
{^134} “ Constitutional questions will not be decided until the necessity for
a decision arises on the record before the court.”

State ex rel. Herbert v.

Ferguson, 142 Ohio St. 496, 52 N.E.2d 980 (1944), paragraph two of the syllabus;
see Interstate Motor Freight Sys. v. Bowers, 164 Ohio St. 122, 128 N.E.2d 97
(1955), paragraph two of the syllabus (“[wjhere a case can be determined upon

any other theory than that of the constitutionality of a challenged statute, no
consideration will be given to the constitutional question.”). Accord Fulton v. Bd.

of Zoning Appeals, 8th Dist. Cuyahoga No. 104561, 2017-Ohio-971,

10.

Although the doctrine of constitutional avoidance tends to apply
most often in the context of appeals, the doctrine applies equally to
the trial courts. See, e.g., Risner v. Ohio Dept, of Natural Resources,
144 Ohio St.3d 278, 2015-Ohio-3731, 42 N.E.3d 718, U 29 (noting
that trial court properly avoided reaching constitutional issue when
it decided [the] matter based on statutory-interpretation principles).

Fulton at ^ id.
{^35} In this case, the record reflects that the trial court avoided reaching
GPI’s constitutional challenge to R.C. 2505.06, and disposed of the
administrative appeal based on statutory-interpretation principles — concluding
that R.C. 2505.06 applied, requiring GPI to post a supersedeas bond, and that
GPI’s failure to do so was dispositive of the case. We further find that the
administrative appeal was not the appropriate vehicle for determining the
constitutionality of R.C. 2505.06, particularly because GPI did not assert its
constitutional challenge to the statute in the declaratory judgment action or its
motions for determining the necessity of a supersedeas bond. Rather, GPI raised
the issue for the first time in opposing NEORSD’s motion to dismiss. Based on
GPI’s belated constitutional challenge to R.C. 2505.06, the constitutional issue
is underdeveloped in the record before this court.

See 75 Pub. Square v.

Cuyahoga Cty. Bd. of Revision, 76 Ohio App.3d 340, 346, 601 N.E.2d 628 (8th

Dist.1991) (a reviewing court “needs a record, and the proponent of the
constitutionality of the statute needs notice and an opportunity to offer
testimony when a statute is challenged on the basis that it is unconstitutional
in its application”); Cleveland v. Williams, 8thDist. Cuyahoga No. 106454, 2018Ohio-2937,1 19.
{^36} Finally, we cannot say thatR.C. 2505.06’s bond requirement denied
GPI access to the courts or violated GPI’s right to a legal remedy. In Foster v.

Wells Fargo Fin. Ohio, Inc., 195 Ohio App.3d 497, 2011-Ohio-4632, 960 N.E.2d
1022 (8th Dist.), this court recognized that a person’s constitutional right to
access the courts is not unlimited.

Id. at t 19.

Furthermore, this court

explained,
a statute of limitations does not deny access to the courts, but limits
that right to a reasonable period of time depending on the type of
claim as prescribed by statute. Similarly, dismissal of claims
pursuant to procedural rules does not violate one’s right to a legal
remedy. Wells u. Visual Sec. Concepts, Inc., [5th Dist. Richland No.
04-CA-118, 2005-Ohio-4272], f 27 (holding that the trial court did
not err to the prejudice of the appellant’s right to legal remedy and
to access courts by granting summary judgment because the
plaintiffs claims were barred by the statute of limitations).
Foster was not denied his constitutional right to a jury trial. He had
access to the court until the applicable statutes of limitations
expired, but he failed to bring his claims within the required time.

Foster at f 20-21.
{^37} In this case, GPI had access to the common pleas court by (1) filing
an administrative appeal within 30 days of the final administrative order, and

(2) posting the requisite supersedeas bond pursuant to R.C. 2505.06, or
substituting the supersedeas bond pursuant to R.C. 2505.11. GPI did not post
the requisite bond and did not substitute the bond requirement. Thus, GPI
failed to perfect its notice of appeal.
{if 38} R.C. 2505.06’s bond requirement did not deny GPI access to the
courts or violate GPI’s right to a legal remedy. Had GPI complied with R.C.
2505.06’s bond requirement, GPI would have had access to the common pleas
court to challenge NEORSD’s administrative ruling. However, GPI failed to
comply with the procedural rules in order to perfect its administrative appeal.
{^f39} For all of the foregoing reasons, we decline to address GPI’s
constitutional challenge to R.C. 2505.06.
III. Conclusion
{if40} After thoroughly reviewing the record, we affirm the trial court’s
judgment. Because GPI filed an administrative appeal on questions of law and
fact, GPI was required to post a supersedeas bond pursuant to R.C. 2505.06.
GPI failed to post the requisite bond, and as a result, the trial court lacked
jurisdiction over the administrative appeal. Accordingly, the trial court properly
granted NEORSD’s motion to dismiss.
{if41} Judgment affirmed.
It is ordered that appellee recover from appellant costs herein taxed.
The court finds there were reasonable grounds for this appeal.

It is ordered that a special mandate issue out of this court directing the
common pleas court to carry this judgment into execution.
A certified copy of this entry shall constitute the mandate pursuant to
Rule 27 of the Rules of Appellate Procedure.
I

FILED AND JOURNALIZED

PER APP.R. 22(C)

MARY EILEEN KILBANE, P.J., and
MARY J. BOYLE, J„ CONCUR
I

I

DEC 0 6 201b
CUYAHOGA BOUNTY CLERK
)FAPPEALS
OF TH&toCUU.
Deputy
By

Exhibit B

Exhibit C

